                                       NATIONAL SCIENCE FOUNDATION
                                        OFFICE OF INSPECTOR GENERAL
                                          OFFICE OF INVESTIGATIONS

                                 CLOSEOUT MEMORANDUM

TO: AIGI         File Number: I96010005                                     Date: 05 March 2002

Subject: Closeout Memo                                                                Page 1 of 1


      There was no closeout written at the time this case was closed. The following information was
      extracted from the file in conformance with standard closeout documents.

      Our office was informed of possible employee embezzlement, theft, or fraud. We received an
      allegation that a POWERMAC 8500 computer was stolen, as were memory chips from another
      POWERMAC 8 100. We found no evidence of memory chip theft, but three 8 100s did not contain
      the amount of memory that had been ordered. We recommended that DAS contact the company that
      shipped the computers to NSF' and request that additional memory for the 8100's be sent to NSF.

      Accordingly this case is closed.




      I-




                  Prepared by:                  Cleared by:
                 Agent:          Attorney:     Supervisor:    AIGI
   Name:



 Signature &
    date:

      OIG-02-2
